      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201

November 30, 2009


TO:           Charlene Frizzera
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Joseph E. Vengrin/
              Deputy Inspector General for Audit Services


SUBJECT:      Review of High-Dollar Inpatient Claims Processed by Cahaba Government
              Benefit Administrators, LLC (Contractor No. 00010), for Calendar Years 2004
              Through 2006 (A-04-08-00039)


Attached is an advance copy of our final report on high-dollar inpatient claims processed by
Cahaba Government Benefit Administrators, LLC (Cahaba), for calendar years 2004 through
2006. We will issue this report to Cahaba within 5 business days. This audit was part of a
nationwide review of payments for inpatient services of $200,000 or more (high-dollar
payments).

During the audit period, Cahaba was the fiscal intermediary for Alabama as contractor
No. 00010. Cahaba processed approximately 1 million inpatient claims during this period, 97 of
which resulted in high-dollar payments.

Our objective was to determine whether high-dollar Medicare payments that Cahaba made to
Alabama hospitals for inpatient services were appropriate.

Of the 97 high-dollar payments that Cahaba made to Alabama hospitals for inpatient services
during calendar years 2004 through 2006, 49 were appropriate. The 48 remaining payments
included overpayments totaling $1,503,244, which had not been repaid by the start of our audit.

Contrary to Federal guidance, hospitals reported excessive units of service and charges that
resulted in inappropriate outlier or add-on payments, and hospitals failed to maintain
documentation of all charges filed. Hospitals generally attributed the incorrect claims to data
entry errors or insufficient documentation. Cahaba made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the Common Working File had sufficient
edits in place to detect and prevent the overpayments. Additionally, Cahaba overpaid one claim
because it used an incorrect wage index when determining the payment. Cahaba attributed this
overpayment to a data entry error.
Page 2 – Charlene Frizzera


We recommend that Cahaba (1) recover the $1,503,244 in identified overpayments, (2) use the
results of this audit in its provider education activities, and (3) consider implementing controls to
identify and review all payments greater than $200,000 for inpatient services.

In written comments on our draft report, Cahaba agreed with our recommendations. Cahaba
stated that it would post the necessary adjustments to begin the collection effort and include
information about what contributed to the overpayments in its provider outreach and education
efforts. Cahaba also stated that it would wait for direction from the Centers for Medicare
& Medicaid Services before implementing controls to identify and review all payments greater
than $200,000 for inpatient services.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through email at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-08-00039.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, S.W., Suite 3T41
                                                                          Atlanta, GA 30303

December 7, 2009

Report Number: A-04-08-00039

Ms. Lynda Northcutt
President
Cahaba Government Benefit Administrators, LLC
300 Corporate Parkway
Birmingham, Alabama 35242

Dear Ms. Northcutt:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of High-Dollar Inpatient Claims Processed by
Cahaba Government Benefit Administrators, LLC (Contractor No. 00010), for Calendar Years
2004 Through 2006.” We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Eric Bowen, Audit Manager, at (404) 562-7789 or through email at Eric.Bowen@oig.hhs.gov.
Please refer to report number A-04-08-00039 in all correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Lynda Northcutt


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


   REVIEW OF HIGH-DOLLAR
INPATIENT CLAIMS PROCESSED BY
     CAHABA GOVERNMENT
 BENEFIT ADMINISTRATORS, LLC
   (CONTRACTOR NO. 00010),
     FOR CALENDAR YEARS
      2004 THROUGH 2006




                       Daniel R. Levinson
                        Inspector General

                         December 2009
                         A-04-08-00039
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS), which administers the
program, contracts with fiscal intermediaries to process and pay Medicare Part A claims
submitted by hospitals. The intermediaries use the Fiscal Intermediary Standard System and
CMS’s Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges based on the diagnosis-related group to which a beneficiary’s stay is
assigned. The “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 3, section 10.1,
requires that hospitals submit claims on the appropriate forms for all provider billings, and
chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

The diagnosis-related group payment is, with certain exceptions, payment in full to the hospital
for all inpatient services. Section 1886(d)(5)(A)(ii) of the Act provides for an additional
payment, known as an outlier payment, to hospitals for cases incurring extraordinarily high costs.
Also, section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239)
provides for an additional payment, known as an add-on payment, for blood clotting factor
administered to hemophilia inpatients.

During calendar years 2004 through 2006, Cahaba Government Benefit Administrators, LLC
(Cahaba), was the fiscal intermediary for Alabama as contractor No. 00010. Cahaba processed
approximately 1 million inpatient claims during this period, 97 of which resulted in payments of
$200,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether high-dollar Medicare payments that Cahaba made to
Alabama hospitals for inpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 97 high-dollar payments that Cahaba made to Alabama hospitals for inpatient services
during calendar years 2004 through 2006, 49 were appropriate. The 48 remaining payments
included overpayments totaling $1,503,244, which had not been repaid by the start of our audit.

Contrary to Federal guidance, hospitals reported excessive units of service and charges that
resulted in inappropriate outlier or add-on payments, and hospitals failed to maintain
documentation of all charges filed. Hospitals generally attributed the incorrect claims to data


                                                 i
entry errors or insufficient documentation. Cahaba made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to
detect and prevent the overpayments. Additionally, Cahaba overpaid one claim because it used
an incorrect wage index when determining the payment. Cahaba attributed this overpayment to a
data entry error.

RECOMMENDATIONS

We recommend that Cahaba:

       recover the $1,503,244 in identified overpayments,

       use the results of this audit in its provider education activities, and

       consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, COMMENTS

In written comments on our draft report, Cahaba agreed with our recommendations. Cahaba
stated that it would post the necessary adjustments to begin the collection effort and include
information about what contributed to the overpayments in its provider outreach and education
efforts. Cahaba also stated that it would wait for direction from CMS before implementing
controls to identify and review all payments greater than $200,000 for inpatient services.

Cahaba’s comments are included in their entirety as the Appendix.




                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicare Fiscal Intermediaries....................................................................1
              Claims for Inpatient Services.......................................................................1
              Cahaba Government Benefit Administrators, LLC .....................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FEDERAL REQUIREMENTS................................................................................3

          INAPPROPRIATE HIGH-DOLLAR PAYMENTS ...............................................4

          CAUSES OF OVERPAYMENTS...........................................................................4

          RECOMMENDATIONS.........................................................................................5

          CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC,
          COMMENTS...........................................................................................................5

APPENDIX

          CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, COMMENTS




                                                                   iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part A claims submitted by hospitals. The intermediaries’ responsibilities include determining
reimbursement amounts, conducting reviews and audits, and safeguarding against fraud and
abuse. Intermediaries use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF) to process hospitals’ inpatient claims. The CWF can detect certain
improper payments during prepayment validation.

In calendar years (CY) 2004 through 2006, fiscal intermediaries processed and paid
approximately 40.6 million inpatient claims, 8,287 of which resulted in payments of $200,000 or
more (high-dollar payments).

Claims for Inpatient Services

Section 1886(d) of the Act established the prospective payment system for inpatient hospital
services. Under the prospective payment system, CMS pays hospital costs at predetermined
rates for patient discharges. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment
in full to the hospital for all inpatient costs associated with the beneficiary’s stay. The “Medicare
Claims Processing Manual,” Pub. No. 100-04, chapter 3, section 10.1, requires that hospitals
submit claims on the appropriate forms for all provider billings, and chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for an additional Medicare payment, known as an
outlier payment, to hospitals for cases incurring extraordinarily high costs. 1 The fiscal
intermediary identifies outlier cases by comparing the estimated costs of a case with a DRG-
specific fixed-loss threshold. 2 To estimate the costs of a case, the fiscal intermediary uses the
Medicare charges that the hospital reports on its claim and the hospital-specific cost-to-charge
ratio. Also, section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239)
provides for an additional payment, known as an add-on payment, for blood clotting factor
administered to hemophilia inpatients. Inaccurately reporting charges or units of service could
lead to excessive outlier or add-on payments.

1
 Outlier payments occur when a hospital’s charges for a particular Medicare beneficiary’s inpatient stay
substantially exceed the DRG payment.
2
 A DRG-specific fixed-loss threshold is a dollar amount by which the costs of a case must exceed payments to
qualify for an outlier payment.


                                                         1
Cahaba Government Benefit Administrators, LLC

During our audit period (CYs 2004 through 2006), Cahaba Government Benefit Administrators,
LLC (Cahaba), was the fiscal intermediary for Alabama as contractor No. 00010. Cahaba
processed approximately 1 million inpatient claims during this period, 97 of which resulted in
payments of $200,000 or more (high-dollar payments).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high-dollar Medicare payments that Cahaba made to
Alabama hospitals for inpatient services were appropriate.

Scope

We reviewed the 97 high-dollar payments, which totaled approximately $26.2 million, for
inpatient claims that Cahaba processed during CYs 2004 through 2006. We limited our review
of Cahaba’s internal controls to those applicable to the 97 claims because our objective did not
require an understanding of all internal controls over the submission and processing of claims.
Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from CMS’s National Claims History file, but we did not assess the completeness
of the file.

We conducted our fieldwork from November 2007 through October 2008. Our fieldwork
included contacting Cahaba, located in Birmingham, Alabama, and the hospitals that received
the high-dollar payments.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and guidance;

       used CMS’s National Claims History file to identify inpatient claims with high-dollar
        Medicare payments;

       reviewed available CWF claim histories for the 97 high-dollar payments to determine
        whether the claims had been canceled and superseded by revised claims and whether
        payments remained outstanding at the time of our fieldwork; and

       contacted the hospitals that received the high-dollar payments to determine whether the
        information on the claims was correct and, if not, why the claims were incorrect and
        whether the hospitals agreed that refunds were appropriate.




                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Of the 97 high-dollar payments that Cahaba made to Alabama hospitals for inpatient services
during CYs 2004 through 2006, 49 were appropriate. The 48 remaining payments included
overpayments totaling $1,503,244, which had not been repaid by the start of our audit.

Contrary to Federal guidance, hospitals reported excessive units of service and charges that
resulted in inappropriate outlier or add-on payments, and hospitals failed to maintain
documentation of all charges filed. Hospitals generally attributed the incorrect claims to data
entry errors or insufficient documentation. Cahaba made these incorrect payments because
neither the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to
detect and prevent the overpayments. Additionally, Cahaba overpaid one claim because it used
an incorrect wage index when determining the payment. Cahaba attributed this overpayment to a
data entry error.

FEDERAL REQUIREMENTS

Section 1815(a) of the Act prohibits Medicare payment for claims not supported by sufficient
documentation. The “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 3, section
10.1, requires that hospitals submit claims on the appropriate forms for all provider billings, and
chapter 1, section 80.3.2.2, requires that claims be completed accurately to be processed
correctly and promptly.

Section 1886(d)(5)(A)(ii) of the Act provides for Medicare outlier payments to hospitals, in
addition to prospective payments, for cases incurring extraordinarily high costs. CMS provides
for these additional payments, as specified in 42 CFR § 412.80, to hospitals for covered inpatient
hospital services furnished to a Medicare beneficiary if the hospital’s charges, as adjusted by the
hospital-specific cost-to-charge ratio, exceed the DRG payment for the case.

Section 6011 of the Omnibus Budget Reconciliation Act of 1989 (P.L. No. 101-239) provides
that hospitals under the prospective payment system receive an additional payment for the cost of
administering blood clotting factor to Medicare beneficiaries with hemophilia during an inpatient
stay. 3 The payment is based on a predetermined price per unit of clotting factor multiplied by
the number of units provided. During our audit period, the “Medicare Claims Processing
Manual,” Pub. No. 100-04, chapter 3, section 20.7.3, required that 100 international units (IU) of

3
 Section 6011(d) was amended by section 13505 of the Omnibus Budget Reconciliation Act of 1993 (P.L. No. 103-
66) and section 4452 of the Balanced Budget Act of 1997 (P.L. No. 105-33) effective for discharges occurring on or
after June 19, 1990, and before October 1, 1994, and for discharges occurring on or after October 1, 1997,
respectively.



                                                        3
clotting factor be reported as 1 billing unit. Accordingly, when billing for clotting factor,
hospitals were required to divide the number of IUs administered by 100. 4

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Cahaba made 48 overpayments totaling $1,503,244, which hospitals had not refunded by the
start of our audit. Generally, hospitals received these overpayments by reporting excessive units
of service and excessive charges that resulted in inappropriate outlier or add-on payments and by
failing to maintain documentation for all charges billed. Additionally, Cahaba overpaid one
claim because it used an incorrect wage index when determining the payment. The following
examples illustrate these high-dollar payments:

        A hospital submitted a claim for 7,980 units of service for blood factor instead of the 79.8
         units that should have been claimed. The hospital’s manual billing process did not divide
         the blood factor IUs by 100, as Medicare required at the time. As a result, Cahaba
         overpaid the hospital $511,799.

        Five hospitals submitted 23 claims that lacked supporting documentation to justify the
         charges billed. As a result, Cahaba overpaid the hospitals $186,914.

        A hospital submitted two claims for 33,205 units of service instead of the 32,609 units
         that should have been claimed. As a result, Cahaba overpaid the hospital $10,747.

        A hospital listed its wage index as 0.9175 and submitted a claim for $13,268. The
         hospital should have been reimbursed $5,116. However, Cahaba incorrectly used a wage
         index of 96.0 and paid the hospital $352,191. As a result, Cahaba overpaid the hospital
         $347,075.

CAUSES OF OVERPAYMENTS

Hospitals generally attributed the incorrect claims to data entry errors or insufficient
documentation. Additionally, Cahaba overpaid one claim because a data entry error resulted in
the use of an incorrect wage index. Cahaba made the other incorrect payments because neither
the Fiscal Intermediary Standard System nor the CWF had sufficient edits in place to detect and
prevent the overpayments. In effect, CMS relied on hospitals to notify the fiscal intermediaries
of excessive payments and on beneficiaries to review their “Medicare Summary Notice” and
disclose any overpayments. 5




4
 Effective July 14, 2006, CMS Transmittal 903, Change Request 4229, instructed fiscal intermediaries to instruct
providers to no longer divide the number of IUs administered by 100 when billing for clotting factor.
5
 The fiscal intermediary sends a “Medicare Summary Notice” to the beneficiary after the hospital files a claim for
Part A service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.


                                                         4
RECOMMENDATIONS

We recommend that Cahaba:

       recover the $1,503,244 in identified overpayments,

       use the results of this audit in its provider education activities, and

       consider implementing controls to identify and review all payments greater than
        $200,000 for inpatient services.

CAHABA GOVERNMENT BENEFIT ADMINISTRATORS, LLC, COMMENTS

In written comments on our draft report, Cahaba agreed with our recommendations. Cahaba
stated that it would post the necessary adjustments to begin the collection effort and include
information about what contributed to the overpayments in its provider outreach and education
efforts. Cahaba also stated that it would wait for direction from CMS before implementing
controls to identify and review all payments greater than $200,000 for inpatient services.

Cahaba’s comments are included in their entirety as the Appendix.




                                                  5
APPENDIX
APPENDIX: CAHA
          CAHABA
               BA GOVERNM
                  GOVERNMENT
                          ENT BENEF
                               ENEFIT
                                    IT ADMINISTRATORS, LLC,
                       COMMENTS

                                                                                                                          Slilier
                                                                                                                               erdd ., D. L,·\ll
                                                                                                                                          L,·\llcr
                                                                                                                                                 cr
                                                                                                  President
                                                                                                  Preside   nt and t:
                                                                                                                   t:hi
                                                                                                                      hicf
                                                                                                                        cf Ope rmin g Ol1ker
                                                                                   Ca ll1
                                                                                      ll1,bil
                                                                                         ,bil Go\t'f
                                                                                              Go\t'fllm
                                                                                                     llm cnl IkneO!\dll1inblri1tors''!' l.L(.




 GOVERNMENT
    BENEfIT
"OMINISTRA TORS. LLC


           Augu s t 19.2009



           Departmee nt of Hea hh and Hu
           Departm                     Human
                                         man Services
           OffICCl of ]n
                      ]nsptC tOf General
                         sptCtOf
           Officee of Audit Servic::cs
           Offic
           Anent ion : Pe   Petter J . Barbera
             egii ()flal l n ~ lo r Genera
           Reg                         Generall fo
                                                forr Audit Servic
                                                           Servicees
           61 Forsyt
                 orsyth  h SU''CCI
                            SU''CCI,, S.
                                      S.WW., Suite]
                                             Suite]T T4 1
           Adama,, Geo
           Adama           eorrgia 30303

           RE: Re
               Repo
                  port
                    rt N umber
                            umber:: A-04-08-0039 Rev iew of Hi gh-Do
                                                                  gh-Dollarllar lnp
                                                                                lnpatient
                                                                                    atient C laim
                                                                                             laimss Proces
                                                                                                      rocessedsed by
           Cahaba Go       nuncc n\ Bendils Admini
                  Go\'\'cc nun              Adminisstrator Fisca
                                                             scall Int
                                                                   Intee rmed iary No
                                                                                    No.. 0001 0 for th
                                                                                                     thee !'
                                                                                                          !'ee ri
                                                                                                               riod
                                                                                                                  od
           January 1, 20 04,, T hrough December 31. 2006.
                      2004

           Dearr Mr. Bowen
           Dea       Bowen..

           We are i n recei pt or th    thee captioned d rafi repon
                                                              repon.. We agree w ith th    thee report and ~()l11mendaljo
                                                                                                            ~()l11mendaljon        n s.
           We will begi n revie reviewing         claimss and post the nec
                                      wing Ihe claim                     necessary
                                                                            essary adjustments to bc:gin th     thee re
                                                                                                                     respective
                                                                                                                        spective
           collllec
           co    ectt ion e ffort . Cah
                                     Cahabaaba will include inr
                                                              nrormati
                                                                 ormation
                                                                        on about wh at co  contribUled
                                                                                               ntribUled to t he overpay
                                                                                                                 overpaym    me n ts in
           Ollr ProvKler Ou   Oull rea
                                   reacc h and Edu
                                                Educc atioo
                                                      atioo.. We will await direct io  ionn rrom the Cente
                                                                                                        entersrs ror Medicare
           and Medicaid Serv   Serviices before we act on th   thee n:co
                                                                     :comm
                                                                         mmcc nda
                                                                               dali
                                                                                  lioo n to impl
                                                                                             implement
                                                                                                   ement con
                                                                                                          conttro
                                                                                                               rolls to id
                                                                                                                         idee nti fy
           andd revi
           an     reviewew all payment
                                paymentss greater than S200.000 ror inpa   inpati
                                                                               tiee nt serv
                                                                                       services
                                                                                             ices..

           If you s hou ld hp ve any questions regardin
                                                regardingg t hi s report
                                                                  report,, plea
                                                                            please
                                                                                se co
                                                                                   conta
                                                                                      ntacc t Mo llllyy Ec ho ls, Manager
           Riss k and CO
           Ri         COlllplian
                         lllpliance
                                 ce at (205) 220·1 5 8 7 or via e llla il at Me
                                                                             MecholS@ca
                                                                                cholS@cahh abagba.com
                                                                                              abagba.com..




           :~~~.
           :~~~.
           PresKlcll\ and C h icrOperating Offi
                                            Office
                                                cerr,
           Ca haba Government Benefi
           Cahaba                 Benefitt Admini
                                           Adminiss tra
                                                    trattors
                                                         ors''·, LL
                                                                 LLC
                                                                   C

           CC:       Brando
                       randonn Ward. Vice Pre Press ident , Ca
                                                             Caha
                                                                ha ba G BA Operations
                     Dav id B rown, Director
                                      Director,, Cah
                                                 Cahaba aba GBA Administrat io n
                          Hill,, Al
                     Jim Hill    AlBB C laim s Ope
                                               Operati
                                                     ratioo n Di v is io nal Manager
                     Fred Se hli c h. Manager o r Caha ahaba ba GOA Co ntra  ntracc ts/S ubcontrac
                                                                                         ubcontractts




                                     500 c..""'I'III~ "",~ .... Y • I\;rm'n~h.m. Abobon •• lj2U·:Hl~
                                                ~ CMS \1,..,', .... \dnun,.,nlhe l.l•.,u""" r
